<html>
<title> - HOLDING CUBAN LEADERS ACCOUNTABLE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




                   HOLDING CUBAN LEADERS ACCOUNTABLE

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 20, 2018

                               __________

                           Serial No. 115-87

                               __________

Printed for the use of the Committee on Oversight and Government Reform


              
              
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
                       
                       

                                   ________
                       
                       U.S. GOVERNMENT PUBLISHING OFFICE
                
31-274 PDF                      WASHINGTON: 2018
 
                       
                       
              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Virginia Foxx, North Carolina        Jim Cooper, Tennessee
Thomas Massie, Kentucky              Gerald E. Connolly, Virginia
Mark Meadows, North Carolina         Robin L. Kelly, Illinois
Ron DeSantis, Florida                Brenda L. Lawrence, Michigan
Dennis A. Ross, Florida              Bonnie Watson Coleman, New Jersey
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Jimmy Gomez, Maryland
Steve Russell, Oklahoma              Peter Welch, Vermont
Glenn Grothman, Wisconsin            Matt Cartwright, Pennsylvania
Will Hurd, Texas                     Mark DeSaulnier, California
Gary J. Palmer, Alabama              Stacey E. Plaskett, Virgin Islands
James Comer, Kentucky                John P. Sarbanes, Maryland
Paul Mitchell, Michigan
Greg Gianforte, Montana

                     Sheria Clarke, Staff Director
                    William McKenna, General Counsel
               Brick Christensen, Senior Military Advisor
                         Kiley Bidelman, Clerk
                 David Rapallo, Minority Staff Director

                                 ------                                

                   Subcommittee on National Security

                    Ron DeSantis, Florida, Chairman
Steve Russell, Oklahoma, Vice Chair  Stephen F. Lynch, Massachusetts, 
John J. Duncan, Jr., Tennessee           Ranking Minority Member
Justin Amash, Michigan               Peter Welch, Vermont
Paul A. Gosar, Arizona               Mark DeSaulnier, California
Virginia Foxx, North Carolina        Jimmy Gomez, California
Jody B. Hice, Georgia                John P. Sarbanes, Maryland
James Comer, Kentucky                Vacancy
                                     Vacancy
                                     
                                     
                                     
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 20, 2018....................................     1

                               WITNESSES

Ms. Miriam de la Pena, Mother of Hermanos al Rescate Pilot, Mario 
  de la Pena
    Oral Statement...............................................     6
    Written Statement............................................     8
Ms. Ana Alejandre Ciereszko, Sister of Hermanos al Rescate Pilot, 
  Armando Alejandre Jr.
    Oral Statement...............................................    10
    Written Statement............................................    12
Mr. Jason Poblete, Attorney, Poblete Tamargo LLP
    Oral Statement...............................................    14
    Written Statement............................................    16
Ambassador Roger Noriega, Visiting Fellow, American Enterprise 
  Institute
    Oral Statement...............................................    34
    Written Statement............................................    36
William LeoGrande, Ph.D., Associate Vice Provost for Academic 
  Affairs, Department of Government, American University's School 
  of Public Affairs
    Oral Statement...............................................    46
    Written Statement............................................    48
    
    

 
                   HOLDING CUBAN LEADERS ACCOUNTABLE

                              ----------                              


                        Wednesday, June 20, 2018

                   House of Representatives
                  Subcommittee on National Security
               Committee on Oversight and Government Reform
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:07 p.m., in 
Room 2247, Rayburn Office Building, Hon. Ron DeSantis [chairman 
of the subcommittee] presiding.
    Present: Representatives DeSantis, Amash, Lynch, and Welch.
    Also present: Representative Ros-Lehtinen.
    Mr. DeSantis. The Subcommittee on National Security will 
come to order.
    Without objection, the chair is authorized to declare a 
recess at any time.
    We are here today to continue this committee's oversight 
into U.S. policy towards the Cuban dictatorship.
    Almost 6 months ago, I held a field hearing in Miami to 
examine the Obama administration's failures with regard to Cuba 
policy. Today we are joined by our fellow citizens who are 
acutely aware of the failures of that policy. Armando 
Alejandre, Jr.; Pablo Morales; Mario de la Pena; and Carlos 
Costa--these are the names of the four men killed in a savage 
attack by the Castro regime on February 24th, 1996. It is my 
hope that our Department of Justice will indict Raul Castro and 
others responsible for this barbarous act.
    Armando, Pablo, Mario and Carlos were flying on a 
humanitarian mission to help desperate men, women, and children 
fleeing the oppressive Castro regime in makeshift rafts. They 
were warriors on the front lines of freedom, doing their part 
in the struggle against the evil totalitarian Cuban Government. 
These brave men, flying unarmed, were shot down over 
international waters by Cuban MiGs, a heinous crime that defies 
comprehension, except we are talking about the Castros. These 
two gangsters took pleasure in human rights abuses and 
spreading chaos throughout the region.
    Unfortunately, our government has failed to hold Cuba's 
leaders accountable. In fact, under the Obama administration, 
the United States released the men convicted for their role in 
connection with the 1996 attack. One man in particular, Gerardo 
Hernandez, had his wish come true by the Obama administration, 
which supported Hernandez in his quest to impregnate his wife 
with artificial insemination. It would be laughable if it were 
not so true, but our government helped the convicted terrorist 
get his wife pregnant while he sat in federal prison.
    To top it off, Hernandez was then released back to Cuba 
where he received a hero's welcome. It is sickening and it was 
and is a disgrace.
    We are also here today to talk about what the Trump 
administration has done with regard to Cuba and what it can do 
in the future because we can do more. We must indict criminals 
like Raul Castro. We can indict them and place economic 
sanctions on other senior officials of the Cuban Government. We 
can get back the fugitives and cop killers like Joanne 
Chesimard.
    However, I am deeply concerned that the bureaucracy in the 
State Department is purposely disregarding and undermining 
President Trump's Cuba policies. We may be seeing the final 
gasp of the holdovers attempting to continue down the failed 
policy course. The President in his speech in Little Havana 
last June made it clear. Quote: we will not lift sanctions on 
the Cuban regime until all political prisoners are freed, 
freedoms of assembly and expression are respected, all 
political parties are legalized, and free and internationally 
supervised elections are scheduled. End quote.
    I will make sure to follow up with the President, the 
Secretary of State, the National Security Council to ensure 
that all these things happen. This committee will continue to 
pursue the corrupt bureaucrats who obstruct and enable this 
regime. We owe it to men like Armando, Pablo, Mario, and 
Carlos. We owe it to their loved ones. We owe it to those in 
Cuba who live this nightmare every day.
    It is my honor and privilege to have the family members of 
the men murdered on that day in February 1996 here today as a 
reminder that the fight for justice continues. We will not 
forget and we will continue the fight.
    Today with us testifying about that fight is Miriam de la 
Pena. Miriam is the mother of Mario, and we are so honored to 
have you here to testify. We are also grateful that your 
husband Mario is here as well. Thank you and God bless.
    We are also blessed to have Ana Alejandre Ciereszko. Ana is 
the sister of Armando, and again, we are very honored to have 
you here today. I thank you for coming.
    We also have Mr. Jason Poblete, a national security and 
federal regulatory lawyer in private practice, who is an expert 
in Cuba policy issues and can help us understand what we can do 
right now to take action against Cuba's leaders.
    Next is Ambassador Roger Noriega, who is caught in traffic 
and also served as Assistant Secretary of State for Western 
Hemisphere Affairs in the Bush administration. Before that, he 
was the U.S. Permanent Representative to OAS, the Organization 
of American States, and he can provide more details about what 
the regime around the region and throughout the world.
    Finally, we have William LeoGrande, Professor of Government 
and Dean of the American University School of Public Affairs. 
We appreciate you being here.
    Thank you so much for being here, all of you. We look 
forward to your testimony.
    And with that, I would like to recognize the ranking member 
of the committee, Mr. Lynch, for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman. I would like to thank 
you for holding this hearing to examine the state of human 
rights in Cuba. I would also like to thank today's witnesses 
for your willingness--for helping the committee with its work.
    Let me begin by expressing my sincere sorrow to the 
families of the four U.S. crew members whose civilian aircraft 
was shot down in 1996 by Cuban fighter jets during a 
humanitarian service mission with Brothers to the Rescue. Ms. 
Miriam de la Pena, the mother of U.S. pilot Mario de la Pena, 
and Ms. Ana Alejandre Ciereszko, the sister of U.S. pilot 
Armando Alejandre, are here with us today and I thank you both 
for your willingness and strength in offering this subcommittee 
your important perspectives on human rights accountability in 
Cuba.
    It is clear that the Republic of Cuba remains an 
authoritarian state whose citizens are subjected to the 
widespread abuse of human rights by their government. Over the 
past decade alone, the U.S. State Department has consistently 
reported serious human rights violations that include the use 
of threats, physical assault, detentions, and intimidation by 
the government as a means of limiting the freedom of expression 
and peaceful assembly and silencing political opposition. Cuban 
authorities have also routinely engaged in the monitoring of 
private communications and limitations on freedom of the press. 
As underscored by the State Department, the free exercise of 
these and other civil liberties is prohibited in the Cuban 
constitution when contrary to, quote, the existence and 
objectives of the socialist state. Closed quote.
    Moreover the government has sought to prevent workers from 
forming independent trade unions and placing stringent 
restrictions on workers rights. According to the State 
Department, the majority of human rights abuses have been 
committed at the direction of the Cuban Government with 
impunity.
    This year witnessed the transition to a new government in 
Cuba with the resignation of President Raul Castro, and 
selection of the Cuba National Assembly of Vice President 
Miguel Diaz-Canel to succeed him as President. While President 
Castro will remain as leader of the Cuban Communist Party 
throughout 2021, the inauguration of President Diaz-Canel 
marked the first time since the 1959 Cuban revolution that a 
Castro is not leading the government.
    In the midst of this political transition, it is imperative 
that we continue to address the Cuban Government's repression 
of human rights by building upon the renewed U.S. engagement 
with Cuba that began during the Obama administration and which 
has been left largely intact under President Trump. We must 
further develop a U.S.-Cuba policy that underscores and 
reflects our longstanding commitment to the advancement and 
protection of international and universal human rights. This 
must include the continuation of the bilateral human rights 
dialogue with Cuban officials that began in 2015, as well as 
meaningful funding for efforts undertaken by the U.S. Agency 
for International Development, State Department, and other 
agencies to support human rights and the development of 
democratic and civil society in Cuba.
    While President Trump proposed zeroing out funding for 
human democracy programs for fiscal year 2018, the bipartisan 
omnibus appropriations bill supported by Congress in March 
ultimately provided $20 million in funding, the same as in 
fiscal year 2017.
    Our Cuba policy going forward must also work to ensure the 
safety of U.S. diplomatic personnel deployed on the island. In 
the aftermath of the still-unexplained injuries suffered by at 
least 24 employees at the U.S. embassy in Havana in November of 
2016, the State Department ordered the departure of all non-
emergency embassy personnel and their families to mitigate 
their exposure to, quote, attacks of an unknown nature. Close 
quote.
    However, in March of this year, the State Department 
announced a permanent staffing plan at U.S. Embassy Havana 
under which the mission will now operate with the minimum 
personnel necessary to perform core diplomatic and consular 
functions. We must make every effort to keep these personnel 
safe.
    Mr. Chairman, I look forward to the discussions of these 
issues and other important issues relating to U.S.-Cuba 
relations with today's witnesses.
    I yield back the balance of my time.
    Mr. DeSantis. The gentleman yields back.
    I will now recognize the gentlewoman from Florida, who is 
no stranger to this issue and other issues involving fighting 
for human rights, Ms. Ros-Lehtinen, for an opening statement.
    Ms. Ros-Lehtinen. Thank you so much, Chairman DeSantis and 
Ranking Member Lynch. Thank you for convening this important 
hearing, for allowing me to join you for the second time this 
year, as we debate U.S. policy toward my native homeland of 
Cuba.
    I would like to thank our witnesses today, all familiar 
faces. Jason and Roger, thank you for being with us today. 
Always good to see you again.
    Ana and Miriam, thank you for not giving up on your efforts 
to seek justice for Armando and for Mario. You two represent a 
united voice of the surviving families of these Brothers to the 
Rescue pilots who want nothing more than to hold accountable 
the Cuban regime officials responsible for the murder of these 
innocent brave men. It has been 22 years since that fateful 
Saturday when three U.S. citizens and one U.S. permanent 
resident, all innocent, unarmed civilians, were brutally killed 
by the Castro regime for simply trying to aid Cubans escaping 
Castro's illegal grip on power. Carlos Costa, Mario de la Pena, 
Armando Alejandre, Pablo Morales were heroes in the eyes of the 
American people and to the Cuban people.
    22 years later, how has the United States, their country, 
honored the memories of these brave patriots? Well, Ruben 
Martinez Puente, Lorenzo Alberto Perez y Perez, and Francisco 
Perez y Perez, all Cuban regime operatives, have been indicted 
in our U.S. courts for their roles in the murderous Brothers to 
the Rescue shoot-down, but until this day, sadly they have yet 
to be held accountable. I have urged administration after 
administration to bring these perpetrators to the United States 
so that they can be prosecuted in accordance with our laws and 
justice for this criminal act can be served.
    But accountability does not just stop with them. This was 
an orchestrated attack. And as we know, nothing happens in Cuba 
without being sanctioned by the Castro regime. And that means 
Raul Castro himself, which is why I urge our U.S. 
administration and our courts to go after Raul Castro for his 
role in the murderous act. The Department of Justice and the 
Department of State can and must indict Raul Castro and all 
others involved in the shoot-down.
    Yet, each administration since the attack has not moved one 
inch to hold them responsible. Instead, in its pursuit of 
normalizing relations with the island, the Obama administration 
made the monumental error of releasing Cuban spy Gerardo 
Hernandez--and you have pointed it out--who was convicted of 
conspiracy to commit espionage and conspiracy to commit murder 
for his role in the murder of these brave pilots.
    Mr. Chairman, in a previous hearing we are so happy that 
you held in our hometown of Miami, we have already discussed 
the negative implications of the misguided Cuba policy of the 
Obama administration, giving concession after concession to a 
murderous regime in exchange for nada, zip, zilch, nothing. And 
to this day, that same regime, for it does not matter who leads 
it, whether it is Castro or Diaz-Canel--that same regime that 
violated international airspace in order to kill Carlos, Mario, 
Armando, and Pablo--it remains as repressive as ever, routinely 
beating, harassing, detaining peaceful protesters and 
journalists.
    Even as President Obama was visiting the island, the human 
rights abuses remain unchanged, and as our very own State 
Department's latest Human Rights Report on Cuba points out, 
there are many, many, many political prisoners in Cuba today.
    I laud Ambassador Nikki Haley for her announcement 
yesterday to withdraw the United States from the U.N. Human 
Rights Council. Having Cuba serve in the council is a mockery 
to the mission of that institution, an insult to the Cuban 
people who day after day are denied their most basic human 
rights.
    This administration has taken concrete, positive steps to 
reverse President Obama's wrongheaded Cuba policy by clamping 
down on economic lifelines to the oppressors and their hand-
picked military leaders.
    However, it can and must do more so that there is no 
question that this administration truly supports the Cuban 
people and our cherished ideals and values and not seek a 
rapprochement with the dictatorial regime.
    So I look forward to the witnesses today. I thank you for 
your leadership, Mr. Chairman. I want to hear about their 
recommendations to Congress and to the administration. To the 
Brothers to the Rescue pilots, their families, you will forever 
be an inspiration to those who are willing to endure great 
sacrifices for the sake of a free Cuba.
    Thank you, Mr. Chairman and Mr. Ranking Member. I am 
honored that you have allowed me to participate. Thank you.
    Mr. DeSantis. I thank the gentlewoman.
    And I am pleased to introduce our witnesses. We do have, as 
was mentioned, Ms. Miriam de la Pena, who is the mother of 
Brothers to the Rescue pilot Mario de la Pena. Welcome. We have 
Ms. Ana Alejandre Ciereszko, sister of Brothers to the Rescue 
pilot Armando Alejandre, Jr. Welcome. We have Mr. Jason 
Poblete, attorney at Poblete Tamargo LLP. Welcome to you. 
Ambassador Roger Noriega, who is now at the American Enterprise 
Institute. Glad you made it through the traffic. It was really 
bad today because I came in about an hour ago and it was a long 
trip just from the airport. And then Dr. William LeoGrande, 
Associate Vice Provost for Academic Affairs for the Department 
of Government at American University School of Public Affairs. 
Welcome and welcome to you all.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. So if you can please rise and raise your 
right hand.
    [Witnesses sworn.]
    Mr. DeSantis. Please be seated.
    All witnesses answered in the affirmative.
    In order to allow time for discussion, please limit your 
testimony to 5 minutes. Your entire written statement will be 
made a part of the record. And as a reminder, the clock in 
front of you shows your remaining time. The light will turn 
yellow when you have 30 seconds left and red when your time is 
up. Please also remember to press the button to turn your 
microphone on before speaking and to speak into the microphone.
    And right now, I would like to recognize Ms. de la Pena for 
5 minutes.

                       WITNESS STATEMENTS

                 STATEMENT OF MIRIAM DE LA PENA

    Ms. de la Pena. Thank you very much, Mr. Chairman. Good 
afternoon, members of the committee.
    I am Miriam de la Pena, and I am here because of the four 
innocent men from my district of south Florida who were 
murdered, namely, Armando Alejandre, Jr.; Carlos Costa; Pablo 
Morales; and my own son, Mario de la Pena.
    Their killers are known, but sadly they remain at large.
    Ambassador Madeleine Albright at the U.N. General Assembly 
on March 6th, 1996, shortly after the shoot-down, described it 
this way, and I quote. The fact is that on February 24th, 1996, 
the Cuban military knowingly, willingly, and in broad daylight 
shot down two aircraft that were unarmed and clearly marked as 
civilian. As Cuban officials were well aware, these aircraft 
posed no threat to the Cuban people or government. The aircraft 
were in international airspace and they were destroyed 
intentionally and in clear violation of international law. 
Close quote.
    The condemnation was echoed by well-known national and 
international organizations such as the European Union, the 
U.N. Commission on Human Rights, and its counterpart at the 
Organization of American States, the U.N. Security Council, the 
United States Congress, the International Civil Aviation 
Organization, and my own district, the U.S. Southern District 
Court of Florida.
    Just to cite a few from the reports above, ICAO reaffirmed 
its condemnation of the use of weapons against civil aircraft 
in flight as being incompatible with elementary considerations 
of humanity.
    And the U.N. Commission on Human Rights in Geneva, 
Switzerland reported also in 1996--and I quote--the shoot-down 
was a premeditated act and that it constituted a violation of 
the right of life to four people. Close quote.
    The evidence supporting the crime committed against three 
Americans and a legal resident is overwhelming. It was the 
shoot-down that prompted President Clinton to sign into law the 
Cuban Liberty and Democratic Solidarity Act of 1996. It is also 
the reason why the law cites the findings by the U.S. Congress 
condemning the shoot-down as an act of terrorism by the Castro 
regime. Congress also urged the President back then to seek in 
the International Court of Justice indictments for this act of 
terrorism by Fidel Castro. Close quote.
    We could also note that Congress reaffirmed the fact that 
it is incumbent upon the U.S. Government to protect the lives 
and livelihood of U.S. citizens, as well as the rights of free 
passage and humanitarian missions.
    With so much evidence at hand, for a crime defined--and I 
quote the above entities--as a barbaric violation of 
international law, an extrajudicial killing, premeditated and 
intentional, using brutal methods, and tantamount to cold-
blooded murder, among others, is it not inconceivable that the 
criminals have gotten away with the murders of four innocent 
men for the past 22 years? Perhaps declassifying additional 
information will aid in the pursuit of justice. Or must we die 
and never see justice served?
    I beg those of you in government responsible for our safety 
and that of our children to do what is necessary to procure 
justice and put an end to impunity.
    Adding fuel to the fire, the families were deeply hurt when 
Gerardo Hernandez, the only Cuban high ranking military 
official serving a life sentence in the U.S. for his role in 
the shoot-down, was released from prison. We felt back then, as 
we feel now, betrayed when this communist cadre of the Cuban 
military apparatus was set free and returned to Cuba. Justice 
was aborted by a stroke of President Obama's pen. Should a U.S. 
President defend and respect the rights of American citizens, 
or should he favor the victimizers?
    Finally, Mr. Chairman, members of the committee, it is my 
hope that the systematic human rights abuses taking place in 
Cuba will soon come to an end and that our President will be 
the first President in nearly 6 decades to shake the hand of a 
Cuban President freely elected by the people who respects and 
defends the Universal Declaration of Human Rights.
    I thank the committee for the opportunity granted me on 
behalf of our loved ones, Armando, Pablo, Carlos, and Mario. 
God bless the United States of America.
    [Prepared statement of Ms. de la Pena follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you.
    Ms. Ciereszko, you are up for 5 minutes.

              STATEMENT OF ANA ALEJANDRE CIERESZKO

    Ms. Ciereszko. Good afternoon, Mr. Chairman and committee 
members. Thank you for having this hearing today.
    My brother Armando Alejandre, a marine and Vietnam veteran, 
was murdered by the Cuban Government on February 24th, 1996, 
together with Carlos Costa, Mario Manuel de la Pena, and Pablo 
Morales.
    I am here representing Armando's widow, daughter, sisters, 
96-year-old mother, and many family members. 22 years after the 
shoot-down, we are still searching for justice. We were dealt a 
very harsh blow when Gerardo Hernandez, convicted of conspiracy 
to murder in the shoot-down, was returned to Cuba by President 
Obama.
    What I brought to you today is a compilation of evidence 
that supports the guilt of the many responsible for these 
murders. This information, reports, indictments, transcriptions 
of communications, audio tapes, et cetera, should bring us a 
little bit closer to justice. We provided most of this evidence 
to the FBI in 2002. In 2003, the U.S. District Court, Southern 
District of Florida, issued indictments charging the head of 
the Cuban air force, Ruben Martinez Puente, and the MiG pilots, 
the brothers, Lorenzo Alberto and Francisco Perez-Perez, with 
conspiracy to kill U.S. nationals, destruction of aircraft, and 
murder. These indictments marked the end of action by the U.S. 
Government on these murders.
    We seek additional indictments against many others 
responsible for the shoot-down. First on the list is Raul 
Castro, who at the time of the shoot-down was the chief of the 
Cuban armed forces. Castro no longer enjoys protection as head 
of state. There is an audio recording of a radio interview in 
which Castro accepts responsibility for these murders. There is 
also testimony that the Cuban air force had practiced shooting 
down small planes days before February 24th.
    Various members of the Cuban intelligence and armed forces 
at the time of the shoot-down should also be brought to 
justice. These include Eduardo Delgado Rodriguez, Brigadier 
General of the Cuban Directorate of Intelligence; Emilio 
Palacios, pilot of the MiG 23; Ulises Rosales del Toro, chief 
of the FAR; and others.
    We are also looking for the political will on the part of 
our government to transmit to Interpol the names of the pilots 
and the general who gave the order, all of whom have pending 
indictments in U.S. courts. We need to make sure that they are 
apprehended and brought to trial.
    We are also requesting information on the role of Ana Belen 
Montes in the shoot-down. She is currently serving a 25-year 
sentence in a U.S. correctional facility after having pled 
guilty to charges of espionage on behalf of the Cuban 
Government. Montes was the top Cuban analyst for the Defense 
Intelligence Agency and advised President Clinton on the 
response to the shoot-down.
    We are also pursuing information on Rolando Sarraff 
Trujillo who was exchanged by President Obama for Alan Gross at 
the same time as when the three of the five convicted spies of 
the Wasp Network were released. Mr. Sarraff was accused of 
being an agent of the CIA and served 20 years in a Cuban jail. 
He has never been made available to the media, and nothing is 
known about his whereabouts. We believe he may have information 
on the shoot-down and would like our government to make him 
available to us.
    To summarize, we are seeking indictments, starting with 
Raul Castro. We are requesting that the names of those already 
indicted be provided to Interpol. We are pursuing additional 
information from the testimony of others in our search for the 
truth.
    We hope that you, this committee, understand that this is 
not a Cuban issue. Carlos and Mario were born in the United 
States. My brother Armando was an American citizen, a marine 
and Vietnam veteran. And Pablito was a U.S. resident. As 
Americans, they deserve the justice that is their due.
    Thank you very much for this opportunity.
    [Prepared statement of Ms. Ciereszko follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you.
    Mr. Poblete, you are up.

                   STATEMENT OF JASON POBLETE

    Mr. Poblete. Holocaust survivor and Nobel laureate Eli 
Weisel said, ``to forget the dead would be akin to killing them 
a second time.'' So thank you, Mr. Chairman, Mr. Ranking 
Member, and members of the committee for holding this important 
oversight hearing on justice for American victims of Cuban 
communism.
    Since the World War II Nuremberg Tribunals, international 
systems, national courts, and laws the world over have evolved 
so that today lawyers have better tools, albeit imperfect, to 
exact justice against violators of universally accepted 
fundamental freedoms. Chile's Pinochet, Yugoslavia's Milosevic, 
Peru's Fujimori, Panama's Noriega, Brazil's Lula Da Silva, 
Rwanda's Ntaganzwa, and many other former government officials 
have come face to face with Lady Justice. These are not 
symbolic moves. Rather, they advance the cause of justice and 
the rule of law. These are fundamental building blocks of a 
civilized society.
    Yet, as American Airline planes land in Cuban airports, 
Carnival and Norwegian ships dock at Cuba ports, and Marriott 
International manages four hotels with the Cuban military, 
American families harmed by Cuban officials are increasingly 
concerned that their cases have been forgotten. Murder, 
torture, forced disappearances, hostage taking, as well as 
property confiscations unparalleled in the history of the 
western hemisphere are some of the crimes that have been 
committed against American citizens. My message to these Cuba 
criminals: justice will be done. America will be coming for 
you.
    The Brothers to the Rescue shoot-down is a good example of 
justice delayed, a delay that has harmed the cause of justice 
throughout the Americas. It is an invitation to autocrats to 
target America. That has been the case recently in Venezuela 
and in Nicaragua. The United States must indict Raul Castro and 
co-conspirators under U.S. law for the Brothers to the Rescue 
murders. The United States and other responsible stakeholders 
must also redouble efforts to track, investigate, indict any 
Cuban official for crimes against Americans.
    The concerns of Americans tortured in Vietnam by the 
Cubans, the Brothers to the Rescue families that are here with 
us, and the thousands of other Americans who were victims of 
Cuban communism --- their opinions and their values are just as 
important as those of American Airlines, Marriott, Carnival, 
Norwegian, the U.S. Chamber of Commerce, and others who 
advocate engagement with Cuba. All Americans deserve equal 
access and treatment under the law.
    Cuba will never be China or Vietnam of the Americas. It is 
an island of 10 million people run by bad and corrupt central 
planners. It is not a paradise. It is a gulag. It is a Potemkin 
village. When Americans visit, they only see what the police 
state wants them to see. The Communist Party does not like 
Americans, free markets, private property, or the rule of law. 
Americans who they perceive as a threat, as Cuba has done since 
1959, will be targeted.
    That is why it was extremely disconcerting but not 
surprising when I learned that the State Department was 
investigating via a statutorily required accountability review 
board the alleged attacks against Americans stationed at Post 
Havana.
    Justice for the victims of the Brothers to the Rescue 
shoot-down is a linchpin case for other Americans seeking 
justice for a wide range of crimes committed by Cuban outlaws. 
U.S. attorneys need full access to all information. The 
declassification process should begin swiftly. The safety of 
Americans I believe depends on it.
    Interpol red notices should be issued for Cuba 
international outlaws for existing indictments, and if legally 
possible, the United States should rescind whatever was 
promised to Cuba in exchange for five Cuban spies released from 
U.S. federal prison. One of these criminals who was directly 
involved in the Brothers to the Rescue shoot-down said upon his 
release, I will do it again if I have to.
    Removing Cuba from the state sponsors of terrorism list was 
a grave mistake and, based on the public record, reckless. It 
undermined U.S. policy goals, but also set back the cause of 
justice as has failing to effectively enforce many other U.S. 
laws.
    For example, nine sections of the Libertad Act have been 
poorly implemented and parts of it mostly ignored by both 
Republican and Democratic administrations. It is not, as 
critics claim, however, an outdated law that does not work. 
Laws work when laws are enforced.
    President Donald Trump's 2017 reorientation of U.S. policy 
was an excellent development, decades overdue. Senior executive 
agency officials and presidential advisors should robustly 
execute President Trump's national security presidential memo 
number 5, one that puts, quote, national security and foreign 
policy interests first.
    Similarly, as the Congress seeks rigorous enforcement of 
the global Magnitsky Act, CAATSA sanctions, it should seek the 
same for statutes guiding policy toward a regime with American 
blood on its hands.
    Finally, beyond the more than eight recommendations offered 
in my prepared remarks for the record, the Trump administration 
should seriously consider creating an interagency task force to 
track down international outlaws in the Americas. Access to the 
U.S. market is a privilege not a right. International outlaws 
belong behind bars. They and in some cases their family members 
should never be allowed to vacation in America or, worse, 
freely move about our country as agents of a totalitarian 
police state.
    [Prepared statement of Mr. Poblete follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. I thank the gentleman.
    The chair now recognizes Ambassador Noriega for 5 minutes.

             STATEMENT OF AMBASSADOR ROGER NORIEGA

    Ambassador Noriega. Thank you very much, Mr. Chairman. I 
have a written statement for the record. I apologize again for 
my tardiness. No disrespect to the committee and its members.
    Thank you for the opportunity to testify before you at this 
hearing to remind us all of the February 24, 1996 attack by the 
Castro regime which took the lives of four innocent men who 
were patrolling international waters to locate and rescue Cuban 
brothers and sisters at peril in the sea. The Castros never 
faced justice for this crime despite the late dictator's public 
admission that the two brothers orchestrated this ambush and 
the use of lethal force.
    In retrospect, Mr. Chairman, we should have recognized this 
1996 attack as dispositive proof of the illegitimacy of the 
terror state in Cuba. Indeed, this hearing is a welcomed 
opportunity to recall that the regime in Havana has never been 
confronted for its international crime spree, which began 
nearly 60 years ago, 6 decades ago, and continues to this very 
day.
    From urging the preemptive nuclear strike against the 
United States in 1962, to organizing a terror campaign against 
Central Americans, to sharing anti-American intelligence with 
our enemies in Baghdad and Belgrade, the Castro regime is an 
implacable and tireless foe of the United States.
    Castro's ongoing criminal conspiracy on our doorstep, which 
has converted Venezuela into a platform for narcotics 
trafficking, money laundering, embezzlement, extortion, and 
political destabilization demands an urgent and effective 
response. The Castro regime installed Nicolas Maduro as the 
leader in Venezuela and the perfection of a dictatorship and 
the destruction of an oil-rich economy is Cuba's handiwork, 
which was being perpetrated brazenly at the same time that 
President Obama was heaping concessions on Havana.
    Cuban agents run an internal security apparatus in 
Venezuela that safeguards a narcostate, which consists of 
dozens of senior officials, including the president himself and 
the former vice president, who have been convicted or 
sanctioned by U.S. authorities for their involvement in 
narcotrafficking and support for terrorism. Indeed, Mr. 
Chairman, there is fresh evidence of the Castro clan's direct 
involvement in drug trafficking and terrorism in Venezuela.
    Last month, two active duty Venezuelan military officers 
informed U.S. law enforcement regarding the direct involvement 
of Cuban military personnel in cocaine smuggling and support 
for Colombian terror camps deep into Venezuelan territory. 
Specifically, one of the reports implicates Raul Castro's son-
in-law, Cuban General Luis Alberto Rodriguez Lopez-Calleja, in 
the shipment of cocaine through the Venezuelan port of Lohidao. 
Another senior Venezuelan officer told U.S. authorities how 
Cuban officers ordered the local military to steer clear of 
Colombian narco guerilla camps deep in Venezuelan territory, 
which are responsible for transiting cocaine to Caribbean ports 
bound for the United States and other markets.
    At long last, we should treat Castro regime officials as 
the international criminals that they are, starting with the 
decision not to recognize their hand-picked pawn as the 
legitimate leader of Cuba. In other words, we should break 
diplomatic relations with Cuba.
    We should gather the evidence to publicly identify Cubans 
who are involved in narcotrafficking, human rights violations, 
and crimes and indict them in U.S. courts.
    We should convince willing partners in the international 
community to join us in applying financial sanctions against 
these criminals, freezing their assets and blocking their 
access to global financial networks.
    In my view, U.S. policymakers should judge future policies 
toward Cuba on whether they increase the economic and political 
freedom of the Cuban people. For example, we should 
reinvigorate our high profile solidarity with the Cuban 
dissidents, human rights activists, independent journalists and 
artists who have informed me personally that the U.S. embassy 
in Havana basically abandoned them after the Obama opening to 
the Cuban regime.
    We should rally likeminded governments in Latin America and 
Eastern Europe to engage the Cuban people not the dictatorship.
    We should restore funding for robust pro-democracy programs 
in Cuba.
    The State Department should return Cuba to the list of 
terrorist sponsors in light of the fact that the Castro regime 
sustains Colombian terror groups despite a peace process in 
that country.
    And we should demand accountability, as the ranking member 
said, for acoustic attacks against two dozen U.S. diplomats in 
Havana, which did personal physical harm to these individuals 
representing us overseas.
    There should be a top to bottom review of the U.S. 
Department of the Treasury and Commerce licenses for commercial 
activities in Cuba to ensure that they are consistent with U.S. 
policy and public law.
    And we should restore restrictions on tourism travel to 
Cuba and focus instead on genuine, meaningful people-to-people 
contact that will advance real contact between the people of 
the United States and Cuba.
    And finally, as Jason Poblete has said, we should enforce 
title IV and title III of the Libertad Act and send a warning 
to even American businesses that those that are trafficking in 
confiscated property face accountability if the President 
decides at any time, which he could, to stop waiving that right 
of action.
    Those are a few ideas, Mr. Chairman. Thank you very much 
for your attention, and I welcome the opportunity to answer any 
questions.
    [Prepared statement of Ambassador Noriega follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you.
    Doctor, you are up, 5 minutes.

                 STATEMENT OF WILLIAM LEOGRANDE

    Mr. LeoGrande. Thank you, Mr. Chairman, Mr. Ranking Member, 
other members of the committee. Thank you for inviting me to 
testify today.
    In deciding to engage with North Korea, President Trump 
recognized that sanctions alone had failed to halt North 
Korea's nuclear program. So he took a different approach. Time 
will tell if it works. I hope that it will.
    But the basic idea behind his approach is no different than 
the idea behind President Obama's opening to Cuba. After 
decades of using the stick of sanctions against an adversarial 
regime without much success, it made sense to try to advance 
U.S. interests through a policy of engagement.
    Whether your principal concern is human rights or 
compensation for nationalized U.S. property or the return of 
U.S. fugitives or Cuba's support for the failing regime in 
Venezuela, there is no chance of making progress on these 
issues with a policy of hostility that relies exclusively on 
sanctions, especially when no other country in the world 
observes those sanctions. Moreover, our current economic 
sanctions harm the living standards of ordinary Cubans, and 
that is why the last three Popes, including John Paul II, who 
was no friend of communism, opposed the embargo.
    The idea of engaging with Cuba is not a new one. Every 
President since Dwight D. Eisenhower, including both Richard 
Nixon and Ronald Reagan, engaged in negotiations with Cuba 
because they realized there were some problems that could only 
be solved with Cuban cooperation. And that is even more true 
today when so many of the issues we face in the western 
hemisphere are transnational, issues like migration, 
environmental protection, human trafficking, and organized 
crime.
    Engagement with an adversary in order to advance U.S. 
interests does not constitute a moral endorsement of that 
adversary's behavior. President Trump's meeting with Kim Jong-
un was not an endorsement of North Korea's human rights record, 
nor was President Obama's opening to Cuba an endorsement of 
that regime's human rights record.
    Our current National Defense Strategy, approved by the 
President in December, identifies China and Russia as our 
principal adversaries in the world today. Both are 
authoritarian regimes with terrible human rights records. Yet, 
we engage with them every day on a variety of issues because 
doing so serves our national interest. There is no reason not 
to do the same with Cuba. Moreover, as we back away from 
engagement with Cuba, Russia and China are rushing to fill the 
vacuum.
    With regard to seeking criminal indictments against Cuban 
officials for human rights abuses, even if there were legal 
grounds for securing these indictments, the accused could not 
be brought to trial because Cuban law prohibits the extradition 
of Cuban nationals. In 1982, four Cuban officials were indicted 
in Florida for narcotics trafficking, and the only effect of 
those indictments was to delay the establishment of 
counternarcotics cooperation between the United States and Cuba 
until the 1990s. In 2003, as has been mentioned, the two Cuban 
pilots responsible for shooting down the Brothers to the Rescue 
plane were indicted in Florida, along with their commanding 
general, but that case has not progressed either.
    Pursuing human rights indictments today might be 
symbolically satisfying, but it would poison the atmosphere of 
bilateral relations and impede existing law enforcement 
cooperation. That would endanger our ability to secure the 
extradition of U.S. nationals who have committed crimes here 
and then fled to Cuba and our ability to pursue the prosecution 
in Cuba of Cuban nationals for crimes committed in the United 
States. These are areas in which there has been significant and 
ongoing progress since 2014.
    In short, I believe that more has been gained and more can 
be gained through a policy of engagement and cooperation on 
issues of mutual interest than through a policy of unmitigated 
hostility and heightened sanctions, real or symbolic.
    I agree with former Secretary of Commerce Carlos Gutierrez 
when he argues that engagement is the best way to help a new 
generation of Cubans modernize their economy and their 
political system.
    Cuba today is going through a process of change, both in 
its leadership and in its economy. The old generation that 
founded the regime is leaving the political stage. Most are 
already gone. At the same time, Cuba is trying to move from a 
Soviet style economic planning system to some version of market 
socialism like China and Vietnam. Economic reform is providing 
Cubans greater economic freedom, and if it succeeds, it could 
raise their standard of living significantly. U.S. policy ought 
to facilitate that change not impede it.
    Ultimately the people of Cuba will determine their nation's 
future and decide on issues of accountability. If the United 
States wants to have a positive influence on these developing 
changes, it has to engage, not sit on the sidelines.
    Thank you, Mr. Chairman.
    [Prepared statement of Mr. LeoGrande follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you.
    The chair now recognizes himself for 5 minutes.
    Ms. de la Pena, can you tell me a little bit about Mario 
and why was he involved with Brothers to the Rescue?
    Ms. de la Pena. Yes, Mr. Chairman. My son Mario wanted to 
be a pilot all his life. It was something that he just loved. 
And he started flying and learning about airplanes at a very 
early age. And when he had all his licenses to fly, Brothers to 
the Rescue was already rescuing--and it was in the news--
rescuing lots of Cuban rafters who would otherwise perish at 
sea. And it was a very wonderful thing to do. I admired him for 
wanting to do that, volunteer his time. And so he volunteered 
and he was accepted to fly with them.
    He was going to school and he had a part-time job, and in 
between, he would fly whenever he got called for a mission. And 
he would leave the house at 7:00 in the morning, fly, and come 
back, and tell me the stories of what happened. And the first 
time he flew--no, not the first time he flew because he first 
flew as an observer and then later as a pilot. But the first 
time that he saw a young couple at sea, it was a little spot. 
And they communicated via a two-way radio. The couple was 
younger than he was, and he was only like 22. And he came back 
and he said, Mom, they were younger than I am and they were at 
sea with sharks and the whole works. And he was just very 
excited about doing it. That is why he joined Brothers to the 
Rescue because it was a very fulfilling experience for him.
    Mr. DeSantis. Ms. Ciereszko, what about Armando? What was 
he like and why did he do it?
    Ms. Ciereszko. Well, Armando came to the United States as a 
10-year-old. We came in 1960 to escape Castro's communism. And 
he always felt a love for Cuba, but he also felt a love for the 
United States. And Armando was the kind of person who always 
wanted to help others. He truly believed that his service in 
Vietnam was going to help stop communism, the spread of 
communism. He had not been able to stop it in Cuba. He was just 
a little kid when he left. But he believed that he could make 
an impact there.
    Afterwards, he stayed very active on many issues both on 
Cuban issues but also on issues in the United States. During 
the Gulf War, he provided a lot of support to the families of 
the men and women who went to fight in the Gulf War. There were 
groups in Miami that were supporting them, and he did a lot 
there. And so he was always active with that.
    He actually was not a member of Brothers to the Rescue. He 
was just someone who cared about what was going on. And he had 
flown only once before to the Bahamas where there was a camp 
where many rafters had been taken to because they had not been 
able to reach U.S. shores. They had reached the Bahamas. And 
they had taken diapers and milk and food. And they were 
supposed to go back to the Bahamas that day, and he was very 
excited about that.
    But I think it was planned by the Cuban Government to make 
sure that instead they were on the Florida straits looking for 
rafters because they were not allowed to land in the Bahamas 
because the Cuban Government had a visit to the camp that day, 
and they did not want both groups there at the same time.
    Mr. DeSantis. Now, what you and then other families--the 
experience about how the U.S. Government reacted to this and 
have you been disappointed? How would you express your feelings 
about the aftermath? Here we are many years later.
    Ms. Ciereszko. We felt that the Clinton administration had 
a very weak response because we thought they are killing 
Americans on international waters. And the only thing that came 
out of that was the Helms-Burton Cuban Libertad Act. And it did 
not feel like it was enough.
    Before that, we always believed that the United States 
would stand for its citizens anywhere in the world. I cherish 
my United States passport. I travel a lot. But I do not feel as 
comfortable today as I did many, many years ago when I really 
believed that the United States would come to bat for any 
American citizen wherever they got into trouble.
    Mr. DeSantis. Ms. de la Pena?
    Ms. de la Pena. I feel equally as disappointed in the 
response because my son would say I do not break the law. I am 
saving lives, and I will be fine, Mom.
    I was worried about the weather and the clouds and the 
thundering when he was flying in these little planes. I was not 
worried about a Castro warplane coming out of their territory 
into international airspace and killing and shooting down the 
two planes without any notice to the pilots.
    But it was very weak--the response.
    And also, 2 years ago, President Clinton met with Raul 
Castro here at the United Nations and shook hands with him, and 
how happy he was to finally meet him. That was very hurtful for 
us as well. The guy that gave the order to kill American 
citizens and you are very happy to hold his hand? It is one 
disappointment after another.
    Mr. DeSantis. My time has expired. I will recognize the 
ranking member for his questions.
    Mr. Lynch. Thank you, Mr. Chairman.
    First of all, again, let me just express my sorrow at your 
loss. And let me express my thanks to your sons and to the 
other pilots for their service to individual freedom and 
democracy and, in the case of your son, Ms. Ciereszko, his 
service to the United States Marine Corps.
    Mr. Noriega and Dr. LeoGrande, both in your remarks you 
talked about--Mr. Noriega you talked about maintaining support 
for the Cuban dissidents and funding for pro-democracy efforts, 
people-to-people contact. Dr. LeoGrande, similar sentiments as 
well about engagement. Engagement.
    So the current policy really with President Trump is really 
one of disengagement and more sanctions-related. And I 
understand the thinking behind that, although there is a long 
history that says the sanctions are not working. I have been to 
Cuba several times, and I have to agree with that sentiment.
    How do we get there? How do we get to a point of holding 
the Cuban leadership accountable through engagement? How does 
that work if this system of sanctions has not been successful 
these many years?
    Ambassador Noriega. Well, I think one of the points I 
wanted to make in my statement, Congressman, was that we have 
tried for 60 years to treat the Cuban Government as if it were 
a legitimate government. We have tried that and it has failed. 
I think we need to recognize that the purpose of the United 
States is not to sell rice and soybeans. It was put on earth to 
promote democracy and protect human rights and promote these 
shared values to make the world a better place.
    Engaging the totalitarian regime of Cuba to the exclusion 
of the 11 million people in Cuba I think is a grotesque 
mistake. I think the idea that people who are going to the 
beaches of Cuba, to which Cuban people do not have access 
themselves, to suntan themselves and the idea that sunbathers 
are going to liberate Cuba is grotesque as well. The idea of 
American tourists doing pub crawls and rum tastings, tiptoeing 
through their tropical gulag in Havana I think is grotesque as 
well.
    But I think it is a mistake for people to assert that we 
did not have travel to Cuba. Hundreds of thousands of American 
people travel to Cuba on a regular basis in different 
categories of travel.
    The best ambassadors for the United States are Cuban 
Americans who are also the people who heap benefits, material 
benefits, on their family members in Cuba. The United States 
does some commerce with Cuba, but we cannot underestimate the 
importance of that personal contact of Cuban American family 
members. And I think that their wishes should have been 
respected by President Obama as he engaged the regime that 
keeps those people enslaved.
    Mr. Lynch. Let me ask Dr. LeoGrande. There is a sense among 
some people that ironically the sanctions have actually helped 
the regime by this rallying around the leaders there against 
the big, bad United States. What are your senses as opposed to 
sanctions versus engagement?
    Mr. LeoGrande. Well, I think there is no doubt that Cuban 
leadership has used the hostility of the United States to try 
to rally Cuban nationalism, wrap themselves in the Cuban flag. 
And I think they have got 50 years of experience doing that. 
They know how to do it. They are pretty good at it.
    I think in many ways President Obama's policy of engagement 
was a more difficult one for them to actually deal with because 
the boogeyman was gone, as Ambassador Roberta Jacobson said at 
one point. They could not point to the United States as the 
source of all their problems anymore.
    With regard to engagement, I do not think it is really 
accurate that we spent 50 years treating the Cuban Government 
like a legitimate government. Up until most recently in 2014, 
our attitude was, in fact, that the Cuban Government was 
illegitimate. And we have the greatest sanctions still today 
against Cuba, greater than we have against any other country in 
the world. It is the policy of engagement that President Obama 
began, which began then to treat Cuba as a legitimate 
government, as at least a de facto government in the same way 
that we treat lots of governments around the world that we do 
not like as the de facto government because it serves our 
national interest.
    Mr. Lynch. Thank you.
    Mr. Chairman, my time has expired. I yield back.
    Mr. DeSantis. The gentleman yields back.
    The chair notes the presence of our colleague, who I did 
note for an opening statement, but I just want to ask 
officially unanimous consent that Ms. Ros-Lehtinen be allowed 
to fully participate in today's hearing. And without objection, 
it is so ordered.
    And I would now like to recognize her for 5 minutes.
    Ms. Ros-Lehtinen. Well, thank you so much, gentlemen, for 
your gracious nature.
    I surely appreciate it because this issue matters so much 
to me and to the constituents I represent. And there is no 
question that Castro ordered his Cuban air force to shoot down 
the two unarmed civilian aircraft, and they were identified as 
such, that killed Carlos, Mario, Armando, and Pablo.
    Sadly, many of our allies around the world turned a blind 
eye to that atrocious attack and continue to this day to turn a 
blind eye to the abysmal human rights record, the violations 
committed every day by the Castro regime in Cuba. And for too 
long, the wrongs committed upon American citizens have gone 
unpunished, particularly in the case of the murders of these 
four brave pilots.
    The Cuban regime is known, as you pointed out, Mr. 
Chairman, for harboring U.S. fugitives of justice, including 
William Morales, Joanne Chesimard, so many. And the regime is 
also known for its coziness with other U.S. designated foreign 
terrorist groups like Hezbollah and the FARC. The regime is 
responsible for destabilizing the governments of other 
countries in the region. In Venezuela, in Nicaragua, in 
Ecuador, we have seen Castro's hand in weakening the democratic 
institutions of those countries.
    And I would ask the experts here under current U.S. law, 
what authorities or avenues are available for the families to 
sue or for the U.S. Government to bring to justice the 
individuals responsible for the shoot-down and other many human 
rights violations. Also, are there any legal barriers or 
restrictions that prevent this from happening, that could be 
resolved by an act of Congress? Or is it that administrations 
have lacked the political will? What do we need to do?
    And finally, we hear about the international mechanisms to 
go after the regime, a tribunal set up by the U.N. Security 
Council, getting responsible nations to join us in holding the 
Cuban regime officials accountable for their human rights 
abuses. But how do we go about doing that, if we agree that we 
should? We know that Russia and China will block anything that 
we try to do on Cuba at the Security Council. Sometimes even 
our allies, who agree with us, as we saw with Ambassador 
Haley's statements on our withdrawal from the U.N. Human Rights 
Council yesterday, are unwilling to take that extra step and do 
the right thing. So what levers of persuasion or pressure can 
we use to get them on board?
    So the legal barriers. What legal avenues are available for 
redress? And what can we do internationally to get others to 
help us?
    Mr. Poblete. Thank you, Madam Chairman.
    I think the first step we have to take is focus on the 
political will to get us there. The legal mechanisms have 
existed. I think plenty of U.S. attorneys in your hometown have 
tried. I think what happens is that when the indictments reach 
Washington, something happens at the Department of State and at 
the Justice Department and at the White House potentially, and 
the whole thing--as the families have--they will share many 
stories with you over 2 decades' worth of trying to do this. 
Something just happens. It comes to a halt.
    That is why I was recommending the first step, declassify 
everything we have. Empower the U.S. attorneys to pursue this 
again. The red notices frankly can be issued tomorrow if they 
wanted to do it for some of the existing indictments.
    But also I think the other part of this beyond political 
will, because that is an important part of any justice equation 
in cases like these, you have to enforce U.S. law. U.S. law is 
not an embargo. It is a big myth that there is a comprehensive 
embargo in place against Cuba. That has not existed since 1992. 
There are difficulties in engaging in the Cuban marketplace, 
but it is not a comprehensive embargo because the law has never 
been enforced that way.
    And that gets to your question and a lot of points that 
have been raised here. The U.S. Government has never tried to 
internationalize our strategy, as required in statute, to get 
our allies to cooperate with us. So in the case of some of 
these indictments and the red notices, we could work with our 
colleagues in Latin America, Asia, Europe, folks that want to 
work with us to pursue maybe the Interpol notices, to cooperate 
with us to bring these people to justice, to freeze assets, to 
freeze bank accounts to make it so that no international Cuban 
scofflaw can leave Cuba. We can do that tomorrow. We just need 
the political will to make it so.
    Ms. Ros-Lehtinen. Thank you, Mr. Poblete.
    Thank you so much, Mr. Chairman, for your generosity.
    Mr. DeSantis. No problem.
    The chair now recognizes the gentleman from Vermont for 5 
minutes.
    Mr. Welch: Thank you, Mr. Chairman.
    First of all to moms who lost your sons, I join all of us 
in expressing my condolences to you and I admire your 
perseverance in behalf of their memory and justice for them. So 
thank you.
    And Professor LeoGrande, just in your words describe how 
engagement would be helpful to young Cubans in an effort to 
modernize their political system?
    Mr. LeoGrande. Well, the first thing it does, as we were 
speaking of earlier, is it takes away the regime's ability to 
blame the United States for all of Cuba's problems. I think 
engagement particularly extended travel--and I have to say that 
Americans are not lying on beaches thinking that that is going 
to liberate Cuba. The law still prohibits Americans actually 
from going to Cuba strictly for tourism.
    But engagement with Americans has helped to build a new 
private sector in Cuba. There are now over 500,000 private 
businesses, not counting agricultural businesses.
    Mr. Welch: Has travel gone down since the change in 
administrations?
    Mr. LeoGrande. It has. Travel is down this year over last 
about 40 percent from the United States. And I think that is 
primarily due to the travel warning that the State Department 
put in place when we had the order of departure from the 
embassy. The order of departure, of course, was required by law 
and it was not unreasonable to reduce the staffing of the 
embassy given the apparent danger that U.S. diplomats were in. 
But if that persists, then it does cast a shadow over our 
ability to have a more productive relationship with Cuba.
    You know, young Cubans are hopeful. First of all, young 
Cubans, I should say, are much more critical of the Cuban 
regime than the older generation is. They are much less 
tolerant of its lack of freedom, its lack of economic and 
political freedom. But they have generally been, as all Cubans 
have been, supportive of a policy of U.S. engagement. There are 
a couple of polls that have been done by people here in the 
United States in Cuba asking Cubans what they think about the 
policy of engagement, and they have supported it.
    Mr. Welch: All right. Thank you very much.
    Mr. Noriega, there are human rights issues obviously in 
Cuba. And I know you are passionate about that in Cuba, and 
thank you for that. But do you believe those human rights 
standards should apply to all countries, freedom of expression, 
free practice of religion, and the right to form political 
association?
    Ambassador Noriega. Yes. They are universally recognized 
human rights. I would have no problem endorsing those.
    Mr. Welch: So I would take it you would believe the U.S., 
if it is going to be supportive of human rights in Cuba, should 
be supportive of human rights everywhere.
    Ambassador Noriega. Of course.
    Mr. Welch: There are some contradictions it appears to some 
outside observers. For example, last year, as you know, 
President Trump was with King Solman of Saudi Arabia, and there 
is an immense amount of evidence that there are serious human 
rights abuses in Saudi Arabia. And the President said we are 
not here to lecture. We are not here to tell other people how 
to live, what to do, or how to worship. How does that square 
with our advocacy, what we should be doing in Cuba?
    Ambassador Noriega. I am happy to assure you, Congressman, 
I agree with you, that we should defend human rights 
everywhere.
    Mr. Welch: Well, thank you.
    Ambassador Noriega. You are welcome.
    Mr. Welch: Professor LeoGrande, can you think of a 
principled reason why the President would cut off relations 
with Cuba for human rights reasons but at the same time 
withhold any criticism of human rights abuses in Saudi Arabia?
    Mr. LeoGrande. Well, you know, in the history of American 
diplomacy, the United States has always supported human rights 
in principle, but in practical terms, we often balance our 
support for human rights off against other interests that we 
may have, economic, strategic interests. And I think that is 
what we see in the President's policy, as I said earlier, 
toward North Korea or his policy towards the Philippines and so 
on.
    Mr. Welch: One last question. How are our farmers doing 
under the current policy towards Cuba?
    Mr. LeoGrande. I am sorry. How are?
    Mr. Welch: Are Midwest farmers doing?
    Mr. LeoGrande. Right now because our farmers cannot get 
private financing, external financing for their sales to Cuba 
and the Cubans have to pay cash up front, we are not the most 
attractive customer for the Cuban Government. We have, 
nevertheless, been able to maintain several hundred million 
dollars of trade, but if that financing restriction were to be 
removed, the Cuban market is a $2 billion agricultural imports 
market.
    Mr. Welch: Thank you.
    My time has expired. I yield back.
    Mr. DeSantis. The gentleman yields back.
    The chair now receives himself for 5 minutes.
    Ambassador Noriega, when Obama did his opening to Cuba, you 
had a lot of American corporations partnering and doing 
business with the Cuban military and the tourist industry, in 
particular, where those industries traffic in stolen property 
that was seized from the regime. So this conflicts with the 
Helms-Burton law, which I know you were heavily involved with, 
to protect the rights of Americans whose property was stolen in 
Cuba and the Trump policy prohibiting commerce with the 
military dictatorship. But yet, for decades, foreign companies 
have been trafficking in these stolen properties. And despite 
last year's reversal, American companies continue to do so as 
well.
    In your opinion how should that problem be handled by the 
U.S. Government?
    Ambassador Noriega. Well, I think it is more important than 
ever particularly that some U.S. companies are engaging and 
there are some travel and Carnival cruises and all these sorts 
of things going down using facilities in Cuba. It is more 
important than ever that we apply the law because there are 
Americans who are now essentially violating the concept of 
property rights of fellow American citizens. And so there are a 
couple of provisions that could be applied.
    Title IV of the Libertad Act authorizes the Secretary of 
State to pull the visas of people who participate in that. And 
so there will be some American companies that have foreign 
executives who could potentially be impacted by that.
    And you have title III, the right of action. It simply says 
go to a court of law and demonstrate that this is your 
property, that under the Libertad Act, this person was not 
authorized to use that property. And the person trafficking in 
that stolen property would be accountable to the other 
American, or for that matter, foreign companies could also be 
accountable to Americans if the President of the United States 
decided to stop waiving the right of people to bring action 
under title III of the Libertad Act, which the President could 
do tomorrow if he wanted to.
    Mr. DeSantis. Mr. Poblete, do you agree?
    Mr. Poblete. I think we have to find a way to bring Cuba to 
account on not only these claims but claims of the families. 
And the property issue--and this is odd coming from a lawyer, 
but the last thing some of us want to do is end up court trying 
to litigate cases and spending our client's money on litigation 
because litigation is expensive. But we need to use title III, 
the threat of it. We need to use title IV more robustly to 
bring Cuba to the negotiating table and stop hedging so much, 
not just on the certified claims but on these cases. And I 
think that is how we need to approach the Cuba conundrum. I do 
not think it is that complicated. We have States in the Union 
that have a lot more GDP than Cuba will ever generate.
    So I think it is a manageable issue, but I think right now 
what we really need is political will. I understand the 
arguments on both sides, but the claimants have been waiting a 
very long time. If we keep this curious ambivalence that has 
characterized U.S. policy for about 20 years, again Republican 
and Democrat administrations, who have not wanted to deal with 
this issue. But we must deal with this issue primarily because 
American citizens are being hurt. Secondly, American interests 
are being undermined. We are not the only ones trying to get 
into Cuba. The Russians are trying to get in there. China is 
trying to get in there. The Europeans are trying to compete 
with us.
    So I think a concerted effort where there is political will 
from the Trump administration--the President laid out very 
clearly. End economic practices that disproportionately benefit 
the Cuban Government or its military, intelligence agencies, 
and what have you. It is a very broad approach where he is 
instructing the executive branch this is where I want to go. 
And I think it is in the execution where the executive branch 
officials and his advisors need to follow through on. And I 
think we can get to an agreement, but we have to finally tackle 
it and be willing to not punt it. We would love to have title 
III, but that is not the, I guess, economically optimal 
solution to this issue. We need a solution that we can 
negotiate directly hopefully with a future Cuban Government.
    Mr. DeSantis. Ms. de la Pena, is there any doubt in your 
mind that Raul Castro is responsible for the deaths?
    Ms. de la Pena. None whatsoever and I hold him accountable.
    Mr. DeSantis. Ms. Ciereszko, any doubt that Raul Castro is 
culpable?
    Ms. Ciereszko. None at all. And I encourage you to listen 
to the transmission from the radio interview that he gave. I 
have provided that in my documents.
    Mr. DeSantis. You see our government will indict like 
Martha Stewart for some things. Why not indict Raul Castro for 
his role? These people just did not do this on their own. They 
were directed to do it by the regime and by Raul Castro. And I 
think that if the Trump administration would move forward with 
a series of indictments, but certainly that indictment, I think 
that that would send a very strong signal that this 
administration, like it has sent signals in other parts of the 
world, that it does mean business and it is going to take care 
of some of these issues that have been lingering for a long 
time.
    I was in Jerusalem when they moved the embassy. That had 
been going on for decades. Finally we did it. You see other 
parts of the world where there is this movement.
    So we need to bring an indictment against Raul Castro, and 
I hope they do that very quickly.
    And I am out of time.
    Steve, do you want to be recognized?
    Mr. Lynch. No. I have no further questions.
    Mr. DeSantis. Ileana?
    Ms. Ros-Lehtinen. No. Thank you so much.
    Mr. DeSantis. Well, I want to thank you guys for coming. I 
know it is frustrating when you are talking about an issue that 
has lingered, but my view is that you just cannot give up, and 
if there are ways where we in the Congress can be helpful to 
try to push forward with good policy, whether it is 
accountability or whether it is applying the law more 
vigorously so that the American people's objectives are met, we 
have got to do that. And so we did the Miami trip in January. 
That was illuminating, and then this hopefully will give us 
some momentum to go to the White House and say now is the time. 
Let us take some action.
    With that, this hearing is adjourned.
    [Whereupon, at 3:20 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
